TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                The Process to Separate Joint Tax Accounts
                   for Innocent Spouse Cases Has Been
                  Improved; However, Additional Actions
                                Are Needed



                                          March 9, 2007

                              Reference Number: 2007-40-053




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1=Tax Return/Return Information



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            March 9, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Process to Separate Joint Tax Accounts for
                             Innocent Spouse Cases Has Been Improved; However, Additional
                             Actions Are Needed (Audit # 200540029)

 This report presents the results of our review of procedures established to protect the rights of
 spouses requesting Innocent Spouse relief. We focused on the effectiveness of the process and
 quality controls while separate accounts were established in response to Innocent Spouse relief
 requests.

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) now separates joint tax accounts to help protect innocent
 spouses from collection enforcement actions against the spouses who owe the liabilities. The
 IRS has taken a number of actions to improve this process so enforcement actions are suspended
 on the innocent spouse and continued on the other spouse. However, there are still some errors
 in this process. IRS employees did not always ensure proper actions were taken (or taken
 timely) on taxpayer accounts while Innocent Spouse claims were being processed.

 Synopsis
 Congress recognized that some married or divorced taxpayers who had filed joint tax returns
 believed they were paying taxes on income that they did not earn, know about, or benefit from
 and enacted legislation that made it easier for taxpayers to file a claim and qualify for Innocent
 Spouse relief.
                         The Process to Separate Joint Tax Accounts for
                      Innocent Spouse Cases Has Been Improved; However,
                                 Additional Actions Are Needed



Recommendation
We recommended the Commissioner, Wage and Investment Division, establish a consistent,
formal methodology for managerial reviews of the inventory and unpostable Innocent Spouse
case lists to ensure any identified issues are resolved by IRS employees.

Response
IRS management agreed with the recommendation. The IRS will establish criteria for
managerial reviews of the inventory and unpostable Innocent Spouse case lists and will start
reviews once the criteria are approved and distributed to managers. IRS management did not
agree with the categorization of our second outcome measure, stating that, although the IRS did
not input appropriate codes on the three accounts we identified, this would not affect these
taxpayers’ rights or entitlements because the three accounts were in balance-due status.
Therefore, any refunds would have not have been made because the monies would have been
applied to the balances due. Management’s complete response to the draft report is included as
Appendix V.

Office of Audit Comment
We continue to believe our categorization of the outcome is appropriate because these taxpayers
would not receive any future refunds even after their balance-due accounts had been fully paid.
We estimated there were 691 taxpayers whose tax accounts did not have the appropriate codes
input, as required, to ensure refunds were released timely once the tax liabilities had been paid in
full.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                   3
                                 The Process to Separate Joint Tax Accounts for
                              Innocent Spouse Cases Has Been Improved; However,
                                         Additional Actions Are Needed




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Some Actions to Suspend or Resume Collection Enforcement
          Were Not Completed or Not Completed Timely on Taxpayer
          Accounts During the Mirroring Process .......................................................Page 4
                    Recommendation 1:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measures...............................................................Page 12
          Appendix V – Management’s Response to the Draft Report .......................Page 14
         The Process to Separate Joint Tax Accounts for
      Innocent Spouse Cases Has Been Improved; However,
                 Additional Actions Are Needed




                 Abbreviations

IMF        Individual Master File
IRS        Internal Revenue Service
                              The Process to Separate Joint Tax Accounts for
                           Innocent Spouse Cases Has Been Improved; However,
                                      Additional Actions Are Needed




                                               Background

Married taxpayers who file joint tax returns are both responsible for any taxes, penalties, or
interest due from those returns, even if they later divorce. This means the Internal Revenue
Service (IRS) can collect all the taxes due from either person, even if only one person earned all
the income.
Congress recognized that some married or divorced taxpayers who had filed joint tax returns
believed they were paying taxes on income that they did not earn, know about, or benefit from.
Although Congress enacted the IRS Restructuring and Reform Act of 1998,1 which made it
easier for taxpayers to file a claim and qualify for Innocent Spouse relief, the person filing the
claim is still responsible for any tax, penalties, and interest that do not qualify for Innocent
Spouse relief. Married taxpayers who did not file joint tax returns and live in community
property States may also qualify for equitable relief.
To request relief, taxpayers send Requests for Innocent Spouse Relief (Form 8857) to the IRS
Cincinnati Centralized Innocent Spouse Operation in Florence, Kentucky, which is responsible
for ensuring the taxpayers’ rights are protected while their claims are being processed. Once an
Innocent Spouse claim is received, it is screened to ensure it meets the basic qualifications for
processing.2 The claim is then reviewed by IRS employees who have had specialized training in
evaluating Innocent Spouse claims. These employees use information supplied by the taxpayer
and the Individual Master File (IMF)3 to evaluate whether the taxpayer qualifies for Innocent
Spouse relief, relief by separation of liability,4 or equitable relief.5




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Basic qualifications for processing an Innocent Spouse claim include, but are not limited to, (1) filed a joint tax
return, (2) properly signed the claim form, (3) made a claim for a tax year in which a tax return was filed, and
(4) provided a valid Social Security Number.
3
  The IRS database that maintains transactions or records of individual tax accounts.
4
  Under this type of relief, the taxpayer allocates (separates) the understatement of tax (plus interest and penalties)
on his or her joint return between the taxpayer and his or her spouse (or former spouse). The understatement of tax
allocated to the taxpayer is generally the amount for which he or she is responsible. This type of relief is available
only for unpaid liabilities resulting from understatements of tax. Refunds are not allowed.
5
  If the taxpayer does not qualify for Innocent Spouse relief or relief by separation of liability, the taxpayer may still
be relieved of responsibility for a portion or the entire amount of tax, interest, and penalties through equitable relief.
Unlike with Innocent Spouse relief or relief by separation of liability, the taxpayer can receive equitable relief from
an understatement of tax or an underpayment of tax.
                                                                                                                  Page 1
                              The Process to Separate Joint Tax Accounts for
                           Innocent Spouse Cases Has Been Improved; However,
                                      Additional Actions Are Needed



Joint tax accounts are separated to provide relief to innocent spouses
Because the IMF was designed to treat both taxpayers who
filed a joint tax return as one unit with a joint tax liability,
                                                                    The tax account “mirroring
it has been difficult for the IRS to separate the joint tax
                                                                    process” is used to create
liabilities6 once an Innocent Spouse claim was determined         separate tax accounts from a
to have met the basic requirements for processing. The             joint account, to protect the
IRS now addresses this problem through the “mirroring                requesting spouse from
process,” which creates two identical individual accounts        collection enforcement actions.
on the IMF for each joint tax liability listed on the
Innocent Spouse claim. A number of steps in this process
are designed to protect the rights of the requesting spouse and the Federal Government’s interest
while ensuring continued collection enforcement actions are taken against the other
(nonrequesting) spouse.
Until the validity of an Innocent Spouse claim is determined, the IRS should not burden the
taxpayer requesting relief with inappropriate collection activities.7 However, collection activity
against the spouse (or former spouse) who did not request Innocent Spouse relief is allowed.
While the taxpayers’ individual accounts are being mirrored, the IRS can ensure collection
activity against the taxpayer requesting Innocent Spouse relief has been stopped and collection
activity against his or her spouse (or former spouse) continues.
Requesting Innocent Spouse relief can also affect the collection statute for each individual
taxpayer on a jointly filed tax return. If a taxpayer requests Innocent Spouse relief, the collection
statute may be suspended for the time the Innocent Spouse claim is being considered. However,
the collection statute for the requesting taxpayer’s spouse (or former spouse) on a jointly filed
tax return should not be suspended. Once the joint liability has been mirrored to each taxpayer’s
individual account, the collection statute can be correctly extended on the requesting taxpayer’s
individual account for the time the Innocent Spouse claim is being considered, while the
collection statute for his or her spouse (or former spouse) would not be extended.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia, and in the Reporting Compliance function and the Cincinnati Centralized
Innocent Spouse Operation in Florence, Kentucky, during the period August 2005 through


6
  Joint tax liabilities may need to be split between the individuals on a joint tax return for the following reasons:
(1) the spouses are liable for different tax amounts, (2) the statutory period for collection or assessment needs to be
suspended for only one of the taxpayers, (3) extensions or suspensions result in different Collection Statute
Expiration Dates (a time period established by law to collect taxes; it is normally 10 years from the date of the tax
assessment) or Assessment Statute Expiration Dates (a time period established by law to assess taxes; it is generally
determined as 3 years after the return due date or IRS received date, whichever is later) for each of the taxpayers,
and/or (4) the need to relieve some portion of the previously assessed tax for either one or both taxpayers.
7
  These would include the filing of levies and the initiation of judicial proceedings.
                                                                                                               Page 2
                        The Process to Separate Joint Tax Accounts for
                     Innocent Spouse Cases Has Been Improved; However,
                                Additional Actions Are Needed



August 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                           The Process to Separate Joint Tax Accounts for
                        Innocent Spouse Cases Has Been Improved; However,
                                   Additional Actions Are Needed




                                    Results of Review

Some Actions to Suspend or Resume Collection Enforcement Were
Not Completed or Not Completed Timely on Taxpayer Accounts
During the Mirroring Process
Because of variations in the way each Innocent Spouse case must be handled, the mirroring
process is not fully automated. Consequently, it is a multistep process with a number of
complicating factors. It is important that IRS employees take the correct steps in a specific order
to prevent collection enforcement action from being taken against the spouse requesting relief
and to continue collection enforcement action against the other spouse. The basic sequence of
steps is as follows:
    •   Certain transaction and action codes are input to the taxpayers’ joint tax account to create
        the two individual accounts.
    •   A series of transaction and action codes must be input to the joint and individual accounts
        to protect the taxpayer requesting Innocent Spouse relief from inappropriate collection
        activities and to ensure continued enforcement action is taken on the other spouse.
    •   The joint tax liability is copied to both individual accounts. Each individual account is
        cross-referenced to the other account. The joint tax liability is reduced to zero and closed
        off of the active IMF. A transaction code is then input allowing future refunds to be
        issued to the nonrequesting spouse once any remaining tax liability has been fully paid.
    •   Once the IRS determines the amount of relief to be allowed, it adjusts the individual
        accounts to reflect the appropriate tax liability for each taxpayer.
To evaluate whether IRS employees properly followed this process, we chose a statistical sample
of 79 joint tax accounts from a computer extract of Innocent Spouse claims that had been
received between December 23, 2004, and September 4, 2005.8 During this period, the IRS
received 12,298 Innocent Spouse relief claims covering 18,656 tax periods. In our sample,
67 joint tax accounts had been through the mirroring process during our review period; therefore,
we estimate 10,892 of the 12,298 claims had been through the mirroring process.
In 18 (27 percent) of the 67 reviewed joint tax accounts for which the joint tax liabilities had
been separated through the mirroring process, certain required transaction and action codes were


8
 This extract came from the Innocent Spouse Tracking System, which tracks each Innocent Spouse claim from
receipt to closing.
                                                                                                      Page 4
                                 The Process to Separate Joint Tax Accounts for
                              Innocent Spouse Cases Has Been Improved; However,
                                         Additional Actions Are Needed



not input (or not input timely) to protect the requesting taxpayers from having inappropriate
collection activity taken or to ensure continued enforcement action was taken on the
nonrequesting spouses. Figure 1 presents the results of our sample.
                      Figure I:Results of Review of Joint Accounts Separated
                                 Through the Mirroring Process

                                                                                                Number of
         The Appropriate Codes Were Not Input (or Not Input Timely)                              Sample
                  to the IMF to Accomplish the Following:                                        Casess

    I   Suspend collection activity for the taxpayer requesting Innocent Spouse relief.

        Resume collection activity for the nonrequesting spouse after the mirroring
        process is completed.

        eventually input but not input timely).
        Prevent refunds for the nonrequesting spouse until the mirroring process is
        completed.
        Allow future refunds for the nonrequesting spouse once any remaining tax                          1
        liability has been fully paid.                                                                   1
    Source: Exception cases identified during our case review.

During Fiscal Year 2005, IRS management recognized that there was a high error rate related to
these transaction and action codes and took certain actions to address the problem. One cause of
this high error rate was the difficulty in determining the proper order and time period for
inputting the codes. There is a specific order in which these transaction and action codes need to
be input on the taxpayers' accounts on the IMF and, in some instances, there needs to be a
specific period of time between inputs, sometimes 1 week or 2 weeks. If the order and/or length
of time between inputs are not correct, the requested actions may not be accepted on the
taxpayers' accounts on the IMF. To eliminate this complexity, IRS management requested a
programming patch, which became effective in May 2005, to automatically input the codes in the
correct order and with the correct timing for many of the various transaction and action codes
used during the mirroring process. However, there are still some transaction and action codes
that cannot be properly input by the programming patch. Some transactions must still be
manually input by IRS employees (e.g., correction of unpostable conditions and cases that cannot
be mirrored initially due to other conditions such as bankruptcy, offer in compromise, or
examination).


9
  The number of exception cases totals 20 because I of the cases had more than 1 of the required actions not taken
(or not taken timely) on the taxpayers' accounts.
                                                                                                              Page 5
                         The Process to Separate Joint Tax Accounts for
                      Innocent Spouse Cases Has Been Improved; However,
                                 Additional Actions Are Needed



Furthermore, in December 2005, we notified IRS management that refunds to the nonrequesting
spouses were not being systemically blocked on some of the mirrored accounts. This problem
occurred in some instances when the nonrequesting spouse’s name and Social Security Number
did not match the IRS’ records (because of a name change resulting from divorce or remarriage),
which prevented the transaction and action codes from posting. To correct this problem, IRS
management requested a programming change to eliminate the name-matching requirement for
Innocent Spouse cases.
In addition, the IRS established general guidelines to ensure transaction and action codes are
input to taxpayers’ accounts within a reasonable amount of time. As of June 19, 2005, new
inventory and unpostable lists were made available to IRS employees to help monitor taxpayer
accounts going through the mirroring process. In October 2005, training was provided to IRS
employees on how to resolve problems when transaction and action codes did not properly post
to taxpayers’ accounts.
The programming changes, new inventory and unpostable lists, and training that the IRS has
implemented should help to reduce the number of transaction and action codes that are not
properly input to taxpayers’ accounts during the mirroring process. However, based on the
results of our sample, the actions taken thus far have not eliminated all the input errors.
Due to timing issues, six of the errors in our sample would not have been prevented by the
programming changes. However, Innocent Spouse Operation employees should have identified
and resolved the input errors by properly working the inventory and/or unpostable lists. Because
Innocent Spouse Operation employees did not timely resolve these input errors, the Federal
Government’s interest may not have been properly protected and refunds could have been issued
to the nonrequesting spouses in these 6 claims with tax liabilities totaling $20,834. Another
three errors in our sample could incorrectly prevent nonrequesting spouses from receiving future
refunds after the mirroring process was completed. These three errors would not have been
prevented by the programming changes, but Innocent Spouse Operation employees should have
resolved the input errors by properly working the inventory and/or unpostable lists. Because this
did not occur, we estimate that, in the 7,597 Innocent Spouse claims that had begun and/or
finished the mirroring process between June 19 (the date the inventory and unpostable lists were
required to be used) and September 4, 2005, there were approximately 691 Innocent Spouse
claims for which the taxpayers’ rights were not protected.
Innocent Spouse Operation managers spot check the inventory and unpostable lists, looking for
trends or glaring problems, and perform quality reviews on two cases per employee each month.
However, they do not review all of the inventory or unpostable lists unless there is a performance
issue. Many of the errors we identified could have been prevented if IRS management had
ensured employees effectively monitored and worked their inventory and unpostable lists. Based
on the results of our review, the spot checking of inventory and unpostable lists by managers
does not appear to be adequate. Until additional systemic improvements are made to further
automate the mirroring process, we believe management should adopt a more consistent and

                                                                                           Page 6
                         The Process to Separate Joint Tax Accounts for
                      Innocent Spouse Cases Has Been Improved; However,
                                 Additional Actions Are Needed



formalized review methodology to ensure the issues on the inventory and unpostable lists are
resolved by IRS employees and to identify and address the causes for unpostable problems.
Management Action: After we discussed our exception cases and concerns about unpostable
conditions with the Cincinnati Centralized Innocent Spouse Operation Operations Manager, the
IRS took immediate corrective actions by temporarily consolidating some of the inventory and
all unpostable list work into one of the Innocent Spouse Operation units. This remained in effect
until the peak processing period for Innocent Spouse claims was over in mid-July 2006. While
this was a temporary fix, we were advised that additional help would again be assigned as
needed, if these problems continued to occur. In addition, by May 2006, Innocent Spouse
Operation employees had been given supplemental refresher training on how to resolve problems
when transaction and action codes do not properly post to the taxpayers’ accounts.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should establish a
consistent, formal methodology for managerial reviews of the inventory and unpostable Innocent
Spouse case lists to ensure any identified issues are resolved by IRS employees.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will establish criteria for managerial reviews of the inventory and unpostable
       Innocent Spouse case lists and will start reviews once the criteria are approved and
       distributed to managers.
       IRS management did not agree with the categorization of our second outcome measure,
       stating that, although the IRS did not input appropriate codes on the three accounts we
       identified, this would not affect these taxpayers’ rights or entitlements because the three
       accounts were in balance-due status. Therefore, any refunds would have not have been
       made because the monies would have been applied to the balances due.
       Office of Audit Comment: We continue to believe our categorization of the outcome
       is appropriate because these taxpayers would not receive any future refunds even after
       their balance-due accounts had been fully paid. We estimated there were 691 taxpayers
       whose tax accounts did not have the appropriate codes input, as required, to ensure
       refunds were released timely once the tax liabilities had been paid in full.




                                                                                             Page 7
                             The Process to Separate Joint Tax Accounts for
                          Innocent Spouse Cases Has Been Improved; However,
                                     Additional Actions Are Needed



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The objective of this review was to evaluate controls that ensure the rights of the spouses
requesting relief are protected while the IRS processes requests for Innocent Spouse relief.
We selected a statistically valid sample of 79 joint tax accounts fiom a population of 18,656 tax
periods on 12,298 claims on the Innocent Spouse Tracking System1 that had been received
between December 23,2004, and September 4,2005. We used a 90 percent confidence level, a
+5 percent precision rate, and an 8 percent expected error rate. Of the 79 joint tax accounts in
-
our sample," {hadnot been mirrored for systemic reasons andThad been mirrored by another
function prior to December 23,2004. This reduced to 67 the number of joint tax accounts we
reviewed that had been through the mirroring process. We performed a limited validation of the
data by matching a judgmental sample of 30 Social Security Numbers to the Integrated Data
Retrieval System2to determine the accuracy of the taxpayer information and account activity.
Our tests of the reliability of the data did not identify any errors.
To focus on the effectiveness of the process and quality controls while separate accounts were
established for Innoccnt Spouse rclief requests, we:
I.       Analyzed our sample of 67 joint tax accounts by researching the IRS IMF3and the
         Integrated Data Retrieval System.
         A. Reviewed the taxpayers' joint accounts to determine whether the IRS took
            appropriate actions to:
             1. Prevent inappropriate collection activitykn the requesting taxpayer's assets
                during the time the Innocent Spouse claim was being considered.
             2. Prevent erroneous rehnds from being generated for the nonrequesting spouse
                during the time the Innocent Spouse claim was being processed.
             3. Begin the mirroring process and create copies of the joint account for the
                requesting taxpayer and the nonrequesting spouse.
             4. Complete the mirroring process for the joint account by reducing the liability to
                zero and close it off the active IMF.

1
  The Innocent Spouse Tracking System tracks each Innocent Spouse claim fiom receipt to closing.
2
  The IRS computer system capable of retrieving and updating stored information; it works in conjunction with a
taxpayer's account records.
3
  The IRS database that maintains transactions or records of individual tax accounts.
4
  These would include the filing of levies and the initiation of judicial proceedings.
                                                                                                           Page 8
                        The Process to Separate Joint Tax Accounts for
                     Innocent Spouse Cases Has Been Improved; However,
                                Additional Actions Are Needed



      B. Reviewed copies of the joint accounts established for the requesting taxpayers and
         their spouses (or former spouses) to determine whether the IRS took appropriate
         actions to:
         1. Complete the mirroring process and allow payments to be cross-referenced
            between the requesting taxpayer’s and his or her spouse’s (or former spouse’s)
            accounts.
         2. Continue to prevent inappropriate collection activity on the requesting taxpayer
            during the time the Innocent Spouse claim was being considered.
         3. Resume collection activity for the spouse (or former spouse) of the requesting
            taxpayer and allow refunds to be generated, as appropriate.
II.   For all of the exceptions identified:
      A. Performed research on the IMF.
      B. Reviewed supporting documentation provided by Innocent Spouse Operation
         management.
      C. Held discussions with Innocent Spouse Operation management to determine whether
         managers took adequate actions to monitor for, identify, and resolve any issues or
         trends, such as embedded systemic problems or employee training, that were
         identified.




                                                                                        Page 9
                       The Process to Separate Joint Tax Accounts for
                    Innocent Spouse Cases Has Been Improved; However,
                               Additional Actions Are Needed



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
Kristi Larson, Lead Auditor
Sylvia Sloan-Copeland, Senior Auditor
Jean Kao, Auditor




                                                                                   Page 10
                       The Process to Separate Joint Tax Accounts for
                    Innocent Spouse Cases Has Been Improved; However,
                               Additional Actions Are Needed



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance SE:W:S
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Field Director, Compliance Services (Andover) SE:W:CP:CS:AN
Chief, Headquarters Discretionary Examination SE:W:CP:RC:EX(DISCR)
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 11
                             The Process to Separate Joint Tax Accounts for
                          Innocent Spouse Cases Has Been Improved; However,
                                     Additional Actions Are Needed



                                                                                               Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; 6 Innocent Spouse claims with joint tax liabilities totaling
    $20,834 (see page 4).

Methodology Used to Measure the Reported Benefit:
Based on our statistical sample1 of 79 Innocent Spouse claims (67 of which had been through
the mirroring process during our audit review period of December 23, 2004, through
September 4, 2005), we identified 6 Innocent Spouse claims (with joint tax liabilities totaling
$20,834) that should have been identified by Innocent Spouse Operation employees on inventory
and/or unpostable lists as having problems that needed correction. IRS employees did not input
(or did not input timely) the proper transaction and action codes to the accounts of these
six taxpayers, to protect the Federal Government’s interest.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 691 taxpayers affected (see page 4).

Methodology Used to Measure the Reported Benefit:
Based on our statistical sample of 79 Innocent Spouse claims, 67 joint taxpayer accounts had
been through the mirroring process between December 23, 2004, and September 4, 2005.
Because we had selected our sample based on tax periods, we calculated the statistical frequency
of the number of joint taxpayer accounts based on the number of tax periods per claim for the
12,298 Innocent Spouse claims received during our audit review period; therefore, we estimate
10,892 Innocent Spouse claims had been mirrored.
A total of 42 of the 79 joint taxpayer accounts in our sample were mirrored after the IRS had
implemented the inventory and unpostable lists on June 19, 2005. Because we had selected our
sample based on tax periods, we calculated the statistical frequency of the number of joint

1
 Our sample was based on a 90 percent confidence level, an 8 percent expected error rate, and a +5 percent
precision rate.
                                                                                                         Page 12
                        The Process to Separate Joint Tax Accounts for
                     Innocent Spouse Cases Has Been Improved; However,
                                Additional Actions Are Needed



taxpayer accounts based on the number of tax periods per claim for the estimated
10,892 Innocent Spouse claims mirrored during our audit review period; therefore, based on our
sample, we estimate 7,597 Innocent Spouse claims were mirrored between June 19 and
September 4, 2005.
Three of the 79 Innocent Spouse claims in our sample were mirrored after June 19, 2005, and
should have been identified on the inventory and/or unpostable lists as having problems that
needed correction. The IRS did not input the proper transaction and action codes to the
taxpayers’ accounts to ensure refunds would be released to the nonrequesting spouses. Because
we had selected our sample based on tax periods, we calculated the statistical frequency of the
number of joint taxpayer accounts based on the number of tax periods per claim for the
estimated 7,597 Innocent Spouse claims mirrored between June 19 and September 4, 2005. We
estimate taxpayers’ rights were not protected 691 Innocent Spouse claims.




                                                                                        Page 13
         The Process to Separate Joint Tax Accounts for
      Innocent Spouse Cases Has Been Improved; However,
                 Additional Actions Are Needed



                                                Appendix V

Management’s Response to the Draft Report




                                                      Page 14
   The Process to Separate Joint Tax Accounts for
Innocent Spouse Cases Has Been Improved; However,
           Additional Actions Are Needed




                                                Page 15
   The Process to Separate Joint Tax Accounts for
Innocent Spouse Cases Has Been Improved; However,
           Additional Actions Are Needed




                                                Page 16
